<html>
<title> - ENCOURAGING THE NEXT GENERATION TO VISIT NATIONAL PARKS</title>
<body><pre>[Senate Hearing 115-486]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-486

                  ENCOURAGING THE NEXT GENERATION TO 
                          VISIT NATIONAL PARKS

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2017

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-430                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
       
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada
                                 ------                                

                     Subcommittee on National Parks

                         STEVE DAINES, Chairman

JOHN BARRASSO                        MAZIE K. HIRONO
MIKE LEE                             BERNARD SANDERS
CORY GARDNER                         DEBBIE STABENOW
LAMAR ALEXANDER                      MARTIN HEINRICH
JOHN HOEVEN                          ANGUS S. KING, JR.
ROB PORTMAN                          TAMMY DUCKWORTH

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Public Lands & Natural Resources 
                            Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                           
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Daines, Hon. Steve, Subcommittee Chairman and a U.S. Senator from 
  Montana........................................................     1
Hirono, Hon. Mazie K., Subcommittee Ranking Member and a U.S. 
  Senator from Hawaii............................................     2

                               WITNESSES

McDowall, Lena, Deputy Director for Management and 
  Administration, National Park Service, U.S. Department of the 
  Interior.......................................................     7
Fuller, Yennie Solheim, Civic and Social Impact Manager, Niantic, 
  Inc............................................................    17
Leong, John, Chief Executive Officer, Kupu.......................    24
Nordstrom, Angela Fultz, Vice President, Federal, NIC Inc........    30
Rout, Tim, Chief Executive Officer, AccessParks..................    35
Shafroth, Will, President & CEO, National Park Foundation........    43

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Society of Civil Engineers:
    Statement for the Record.....................................    82
Daines, Hon. Steve:
    Opening Statement............................................     1
Fuller, Yennie Solheim:
    Opening Statement............................................    17
    Written Testimony............................................    19
    Responses to Questions for the Record........................    76
Hirono, Hon. Mazie K.:
    Opening Statement............................................     2
    Photo of students in the Kupu pipeline.......................     4
    Photo of Sen. Hirono and National Park Service personnel 
      distributing passes for Every Kid in a Park................     6
King, Jr., Hon. Angus S.:
    Photo of Acadia National Park website........................    56
    Photo of online YourPassNow..................................    59
Leong, John:
    Opening Statement............................................    24
    Written Testimony............................................    27
McDowall, Lena:
    Opening Statement............................................     7
    Written Testimony............................................    10
    Responses to Questions for the Record........................    72
National Marine Manufacturers Association:
    Letter for the Record........................................    87
(The) National Treasury Employees Union:
    Statement for the Record.....................................    89
Nordstrom, Angela Fultz:
    Opening Statement............................................    30
    Written Testimony............................................    32
Outdoor Industry Association:
    Statement for the Record.....................................    92
Rout, Tim:
    Opening Statement............................................    35
    Written Testimony............................................    37
    Responses to Questions for the Record........................    77
Shafroth, Will:
    Opening Statement............................................    43
    Written Testimony............................................    46
    Response to Question for the Record..........................    81

 
        ENCOURAGING THE NEXT GENERATION TO VISIT NATIONAL PARKS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 27, 2017

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:07 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Steve Daines, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines [presiding]. The Subcommittee will come to 
order.
    This is the third hearing of the National Parks 
Subcommittee this Congress, a continuation of the important 
work of oversight of the National Park Service (NPS).
    In collaboration with Ranking Member Hirono, this 
afternoon's hearing will examine a collection of topics and 
ideas to attract younger generations to our national parks and 
how the increasing role of technology supports not only the 
visitor experience but park operations as well.
    Technology is becoming entwined with every aspect of our 
life, our jobs, our home life, even our outdoor recreation. In 
fact, I am holding my second, high tech summit in Montana in 
Missoula which is just 100 miles south of Glacier Park. I will 
be doing that in early October to highlight and examine the 
growing role of technology in our lives.
    As an avid outdoorsman and spending a lot of time with 
other hunters and fishermen, how often do we have our iPhones, 
and we are using that to understand where the public land/
private land boundaries are and so forth. It is just ingrained 
in terms of how we experience the outdoors today.
    As we have learned, the NPS Centennial was a banner year 
with record-setting visitation numbers. What the numbers do not 
show is that the majority of visitors to national parks, aging 
Baby Boomers, do not reflect the makeup of the American 
population. The younger generations, our kids, our grandkids, 
will eventually assume the leadership and responsibility for 
our government, our corporations, our businesses and our 
national parks. That is why it is so important for us not only 
to engage youth and young adults but to instill a sense of 
ownership and excitement in these national treasures. The lives 
of younger generations are much more steeped in technology than 
older adults. You all know that. When you need help, you go 
find an 11-year-old, and they will figure out your iPhone for 
you. This poses a challenge but an opportunity as well.
    One of the things we will explore today is how to knit 
together technology with the park experience. Less exciting, 
but equally important, is the role of technology in park 
operations and how the Park Service plans to keep pace with 
best business practices as well as customer service.
    Something that young and old alike are experiencing, 
especially after the successful Centennial campaign, is 
overcrowding in some parks, while other park sites remain 
fairly undiscovered.
    I take great pride in iconic parks like Yellowstone and 
Glacier. I grew up 90 miles away from Yellowstone National Park 
and live there today. That is in my home state, but we have 
some of our lesser known national treasures in Montana--the 
Grant-Kohrs Ranch National Historic Site just 50 miles north of 
Yellowstone--and other wonderful sites such as the Little 
Bighorn Battlefield. Much work remains to be done by the Park 
Service and the National Park Foundation to better inform the 
public and to foster visitation, especially for those living 
nearby, of lesser known but no less interesting sites under the 
Park Service's stewardship.
    I look forward to hearing from our witnesses on how the 
National Park Service can capture the imagination and the 
passion of our youth and future stewards to improve the visitor 
experience in its now second century.
    I will now turn to our Ranking Member, Senator Hirono, for 
her remarks.

              STATEMENT OF HON. MAZIE K. HIRONO, 
                    U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you. I was trying to find my park 
pass.
    [Laughter.]
    Thank you, Mr. Chairman, and I note you said that we 
certainly need to encourage young people to visit our parks and 
not just the Baby Boomers who are all over our parks. As one of 
the Baby Boomers, I am very proud, along with Senator Angus 
King, of our park passes. So thank you very much.
    Again, last year marked the third year in a row that we saw 
record visitation at our national parks. In Hawaii, national 
park visitation was up six percent statewide and almost every 
park in Hawaii saw increased visitation. However, while America 
is growing more diverse and urban and younger generations are 
making up a greater share of the population, these trends are 
not reflected in visitors to our national parks, as you noted, 
Mr. Chairman.
    From increasing the use of virtual reality through games 
like Pokemon GO--and I have staff members who tell me they play 
Pokemon GO--whatever the heck that is.
    [Laughter.]
    I actually know what that is, okay? Just checking.
    [Laughter.]
    To continue support for youth conservation programs, our 
witnesses today will speak to a wide variety of ways that we 
can reverse that trend and encourage more young people to visit 
national parks.
    I would like to extend a special welcome to John Leong, who 
serves as the CEO of Kupu in Hawaii. Over the past 10 years, 
Kupu has created a pipeline--there is a pipeline--
    [Laughter.]
    [Photo of students in the Kupu pipeline follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Hirono. Some of them anyway. I visited with them 
not very long ago. Kupu has created a pipeline of young people 
who are engaged in conservation. Kupu's programs have trained 
over 3,500 of Hawaii's youth to become stewards of our culture 
and `aina, or land.
    Last month I met up with Kupu interns and AmeriCorps 
volunteers at Kupu's Makiki Baseyard. They showed me photos 
from their work restoring wetlands on Oahu and shared personal 
experiences about how their time in Kupu set the trajectory of 
their careers. As John will mention, the majority of Kupu 
graduates go on to pursue careers in forestry and protecting 
our `aina.
    Kupu is Hawaii's accredited partner in the 21st Century 
Conservation Service Corps, one of the many programs created by 
the Obama Administration to engage young people in our national 
parks. These initiatives also include the Hawaii Island Youth 
Ranger Program which provides summer employment opportunities 
for underserved Hawaii students. The Obama Administration also 
created the Every Kid in a Park Program which gives fourth 
graders and their families free admission to national parks. 
And we have a picture of fourth graders lining up to get their 
free park passes.
    [Photo of Sen. Hirono and National Park Service personnel 
distributing passes for Every Kid in a Park follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    It is/was a very popular program which I hope will be 
continued by this Administration.
    Last year I visited Hawaii Volcanoes and Haleakala National 
Parks with Hawaiian fourth graders, and they were really 
excited to see active volcanoes on Hawaii Island and plant the 
native silversword on Maui. We did this planting when we were 
beaten down by driving rains and 50 degree temperatures at 
Haleakala.
    Many of these efforts are part of the National Park Service 
Centennial Campaign. I want to make sure that they continue 
beyond the Centennial anniversary, and this work must be front 
and center as we move forward.
    We also need to invest more in social science and data so 
that we can measure the success and know whether we are moving 
closer to our goal, national parks and park visitation that 
reflects the diversity of our country.
    The future of the National Park Service depends upon its 
ability to engage and reflect the full American community and 
the full American experience. We must keep pushing to realize 
the promise of our parks as places for all Americans of every 
age and background to enjoy for generations to come.
    I again want to thank you for holding this hearing today. I 
think it is really an interesting prospect that what we want to 
do is to enable these young people who are totally into 
technology and the social media to not only look around and 
smell the roses and whatever in our parks but to be able to use 
technology to enhance their experience.
    So I look forward to our witnesses.
    Senator Daines. Thank you, Senator Hirono.
    It is now time to hear from our witnesses.
    Joining us this afternoon are: Ms. Lena McDowall, Deputy 
Director for Management and Administration of the National Park 
Service; Ms. Yennie Fuller, Civil and Social Impact Manager, 
Niantic; Ms. Angela Fultz Nordstrom, Vice President, NIC 
Incorporated; Mr. Tim Root, Chief Executive Officer of 
AccessParks; Mr. John Leong, Chief Executive Officer of Kupu 
Hawaii; and Mr. Will Shafroth, President and CEO of the 
National Park Foundation.
    I want to thank you for being with us here today. At the 
end of your testimony we will begin questions. Your full 
written testimony will be made part of the official hearing 
record.
    Ms. McDowall, would you now proceed?

STATEMENT OF LENA MCDOWALL, DEPUTY DIRECTOR FOR MANAGEMENT AND 
 ADMINISTRATION, NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Ms. McDowall. Thank you.
    Chairman Daines, Ranking Member Hirono and members of the 
Subcommittee, thank you for the opportunity to discuss the 
National Park Service's efforts to encourage the next 
generation to visit national parks.
    We are engaged in a variety of efforts, including special 
youth programs, updates to our facilities and IT infrastructure 
and stronger public-private partnerships to draw younger 
visitors. Secretary Zinke is committed to improving our 
national parks by addressing the deferred maintenance backlog 
and delivering high quality experiences to all visitors, 
including children, young adults and families. Since the 
establishment of the National Park Service in 1916, families 
and youth groups have been an important focus.
    For our Centennial last year, we set an ambitious goal to 
connect with and create the next generation of park visitors, 
supporters and advocates. With the National Park Foundation and 
other partners, we sought new ways to inspire young people to 
get to know and love their parks. We set an all-time visitation 
record for the third year in a row with more than 330 million 
visits.
    This year public engagement continues with the theme, Parks 
101. We're inviting people to discover lesser known parks and 
encouraging visitors to enjoy camping, hiking, kayaking and 
where allowed, hunting and fishing. We're taking steps to 
respond to current trends in outdoor recreation and heritage 
tourism.
    Recreation.gov, which is the central hub for many types of 
federal land reservations, will get a new platform in the fall 
of 2018 with a new contractor. Major upgrades to that system 
are already underway.
    We've also made a number of changes to the Park Service 
website, NPS.gov. Fifty percent of NPS.gov page views come from 
mobile devices, so we've transitioned to a mobile responsive 
design. Through a new application programming interface our 
data and content is also available to programmers to create 
apps in the private sector.
    Last year we launched a pilot program to test mobile pass 
sales in seven parks. These allow visitors to save their passes 
on mobile devices or print them, similar to electronic boarding 
passes, airline boarding passes. We've been assessing the pilot 
and look forward to expanding it to other parks and pass types.
    Visitors want to be able to use their mobile devices while 
they visit parks to access the internet and to communicate with 
each other. Connectivity continues to be a challenge in park 
areas located far from population centers because of limited 
bandwidth, fewer cell towers and extreme topography that 
reduces cell signal distance and quality. Over the last several 
years some parks have installed consumer-grade signal boosters 
to help with this problem. We've also increased Wi-Fi access 
points, and now over 130 parks currently provide access in or 
near visitor centers and partner facilities. Lake Mead National 
Recreation Area recently started the first ever concessions 
contract to provide Wi-Fi at campgrounds with AccessParks.
    As part of an effort across all of the Department of the 
Interior bureaus, we're kicking off an initiative to welcome 
veterans, active duty members of the military and their 
families to parks. While still in the early planning stages, 
ideas include expanding distance learning for students on 
military bases. One project allows students to visit Channel 
Island National Park virtually and interact in real time with 
park staff, including NPS scuba divers.
    Our frontline rangers are experimenting with engaging new 
audiences. We now have several mobile visitor centers which are 
food truck style vehicles that bring parks to young people at 
community events, festivals and fairs. Our for-profit and non-
profit partners have multiplied our reach and provide many 
services that cater to millennials.
    Concessions partners have been upgrading services and 
expanding choices in overnight accommodations. Partnerships 
with non-profit groups also increase our engagement with 
younger people. NatureBridge, for example, provides residential 
programs in parks for 30,000 students and teachers for more 
than 700 schools every year.
    In summary, the National Park Service is embarking on a 
multidisciplinary approach to engaging new audiences. With the 
efforts of talented and passionate staff and partners and with 
Secretary Zinke's emphasis on building a national park system 
for the future, I am confident that we will inspire and engage 
another generation of Americans in the special places we 
steward.
    Chairman Daines, this concludes my statement. I would be 
pleased to answer any questions.
    [The prepared statement of Ms. McDowall follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you for your testimony.
    Ms. Fuller.

  STATEMENT OF YENNIE SOLHEIM FULLER, CIVIL AND SOCIAL IMPACT 
                     MANAGER, NIANTIC, INC.

    Ms. Fuller. Mr. Chairman, Ranking Member Hirono, members of 
the Subcommittee, my name is Yennie Solheim Fuller and I'm the 
Civic and Social Impact Manager of Niantic.
    On behalf of the dedicated and innovative professionals at 
Niantic as well as the millions of users who play our games 
around the world every day, it's an honor to be here to talk 
about how AR, or augmented reality, can help encourage the next 
generation to visit and enjoy both our national parks, historic 
sites and majestic open lands.
    While you may not have previously heard about Niantic, I 
suspect you might know about our games, particularly Pokemon 
GO. We're proud that Pokemon GO, as well as our earlier AR 
game, Ingress, have together helped stir the world's attention 
and imagination and the enormous potential that AR as an 
educational and exploration tool brings.
    More fundamentally, we've been excited at how our games get 
people moving. Even now, we continue to hear stories about 
people getting outside, spending times with their friends and 
family, meeting new people and discovering new places in their 
communities and across the country, including our national 
parks and monuments. These stories speak to our core mission, 
using our technology to get people outside to appreciate the 
wonders of our worlds.
    Through our augmented reality games, Ingress and Pokemon 
GO, users are encouraged to uncover the stories behind 
significant locations such as historic buildings, art 
sculptures and monuments.
    Many of those points of interest are in or around our great 
national parks. That's why it's no surprise that a byproduct of 
the game's popularity is increased park visitation, including 
people, young and old, who hadn't previously set foot in a 
national park.
    As we understand, the National Park Service informed your 
Committee that some of its parks had seen a welcomed increase 
in visitation because of Pokemon GO. We're heartened to hear of 
this because it's exactly why we created Ingress and Pokemon 
GO, to get people outside, to explore and learn about the world 
around them and to visit the interesting places that they 
wouldn't have necessarily seen before.
    In both Pokemon GO and Ingress, game play is often tied to 
a notable location. So, for example, a Pokemon GO player, who 
is playing the game near the Many Glacier Hotel in Glacier, 
Montana, will learn from the text box that accompanies the game 
play that the hotel was a part of a network of chalets that 
were built a day's horseback ride apart. Similar bits of 
interesting information of history can be found at game play 
locations in Yellowstone, Haleakala in Hawaii and other 
national parks and landmarks across our great country.
    As an aside, we at Niantic have followed the interest and 
concern at the recent wildfire at the Glacier National Park, 
and the loss of the Sperry Chalet, in the Chairman's great 
State of Montana. We would be happy to work with you, Mr. 
Chairman and the National Park Service, to engage with the 
community in the funding and the rebuilding efforts. In fact, 
this is something that we've done with our Ingress community 
before, using the game as an organizing tool to get people to 
reinvigorate and revitalize their surrounding areas.
    While we're excited about the use of our games as a tool to 
encourage exploration of our national parks, we're also mindful 
that all of us are really just temporary stewards of this land. 
For this reason, we created ``Operation Clear Field.'' This is 
a program that combines Ingress game play with light cleanup in 
106 city, state and national parks. Throughout ``Operation 
Clear Field,'' we've enabled gamers to be able to contribute to 
the National Park Foundation, and I'm very proud to say that 
we've collected over $60,000 for the NPF.
    As we continue to offer Ingress and Pokemon GO and as we 
look ahead to the next additions to and advancements in AR 
gameplay, we look forward to coming up with the programs that 
both get the next generation outside to explore and to see the 
wonder of our national parks and help them see these public 
lands for what they truly are which is a special place that 
belongs to all of us.
    Mr. Chairman, thank you and your Subcommittee colleagues 
again for the opportunity to appear today, and I look forward 
to answering your questions.
    [The prepared statement of Ms. Fuller follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you, Ms. Fuller. Thank you for your 
support of the Sperry Chalet as well, we appreciate it.
    Mr. Leong.

     STATEMENT OF JOHN LEONG, CHIEF EXECUTIVE OFFICER, KUPU

    Mr. Leong. Aloha, Senator Daines, Ranking Member Hirono and 
members of the Subcommittee. Thank you for the opportunity to 
come all the way from Hawaii to share with you folks today.
    My name is John Leong. I am the CEO and Co-founder of Kupu. 
We are a non-profit based out of Hawaii that runs a Youth Corps 
model where we engage young adults in service around 
conservation, sustainability, Hawaiian culture and education. 
I'm also a former board member of the Corps Network which 
engages about 135 Youth Corps in states all across our country. 
And I'm also a former Corps member myself as well, too.
    Youth Corps are playing a pivotal role in a public-private 
partnership with the government to manage our public lands. 
It's really exciting because this is a win-win situation in 
which parks and resources are getting managed in a cost-
effective way and it's transforming lives.
    We're able to--Kupu has been working with the National Park 
Service in Hawaii for the last decade, and we've been working 
with some of the highest-grossing national parks in our 
country. It's really exciting because our members, along with 
corps across the country, are doing important work with the 
national parks, like addressing infrastructure needs, getting 
into backlog maintenance projects. They're also helping with 
trail restoration, invasive species removal, native species 
recovery, wildlife habitat recovery and we're also doing 
education and outreach with visitors and also getting 
volunteers engaged in service.
    We're able to efficiently and effectively respond to the 
needs of the government and the national parks because we have 
operating agreements and partnerships in place. And that's 
really significant because it saves time and important 
administrative costs to the government, and we're able to get 
to these needs quickly.
    Also, really exciting about this is that it's not just 
important work that we're getting done on a day-to-day basis, 
but we're transforming lives. The work being done to improve 
our national parks is a vehicle that's helping to unlock the 
potential in our youth. And it's really allowing them to 
explore careers in conservation but at the same time they're 
getting transferable job skills like leadership, communication, 
teamwork, responsibility, the value of hard work and 
transferable technical skills that they can take with them 
throughout life.
    It's really exciting because this is helping them to get 
into meaningful careers. As an example, proposed legislation 
like the 21st Century Conservation and Service Corps Act will 
allow young adults who have been Corps members to work in 
conservation with the national parks and other federal entities 
after they've finished their term of service.
    This will allow--this is exciting because we have Corps 
members who are former veterans and there also are Corps 
members living in rural and underserved areas. This gets them 
access to good paying, federal jobs, but also conversely, they 
are able to help the National Park Service to increase 
diversity in age, gender and ethnicity within the workforce at 
the parks and hire locally.
    What's also really exciting about this as well, too, is 
that it's helping young adults to find purpose and passion 
while building skills that makes them marketable in the 
community.
    As Senator Hirono mentioned, we have a high demand for our 
alumni in the workforce in the conservation sector. Some of our 
partners have up to 75 percent of their staff being Kupu 
alumni.
    But our alumni are also getting into other private sector 
industries. This includes areas like technology, energy, 
conservation, renewable energy, education and even 
entrepreneurs as well.
    In fact, our own Governor's wife, Mrs. Dawn Ige, is a 
former Youth Corps member who got her start in the national 
parks at Volcanoes National Park on Hawaii Island. This just 
goes to show that Corps members can go anywhere in life if they 
put their mind to it.
    What's also exciting is that our work at the national parks 
creates educational pathways to make our Youth Corps members 
successful. Through the generous support of AmeriCorps, we were 
able to provide hundreds of young adults with living 
allowances, but also close to $1 million this last year in 
educational awards. That coupled with partnerships we have with 
the University of Hawaii and other colleges locally--we're able 
to make the dream of attaining a higher education more 
attainable for our young adults, especially those who hadn't 
thought of going off to higher education.
    And what's really exciting about this as well, too, is that 
this is not just a feel-good type of work, it's getting things 
done. It's not just a black hole that we're putting money into. 
Working with corps and the national park is really exciting 
because we're seeing that as a catalyst that's multiplying 
every dollar spent. It's creating improved resources; it's 
helping government to become more efficient; it's helping to 
improve lives; and it's building stronger communities. Last 
year alone Kupu's socioeconomic impact was close to $16.3 
million--$90 million over the last decade. For every dollar we 
spent, we saw $3.40 in economic returns. That's a 340 percent 
return on investment. I think all of us would like to get that 
in the bank.
    What's even more exciting is that our federal funding is 
only 25 to 30 percent of our budget, which means that we are 
leveraging every dollar spent and we're multiplying it.
    The National Park Service also found that Youth Corps saved 
them 50 to 80 percent in operating costs where working with 
Youth Corps nationwide. And this is important because this is 
not just a good way to spend funds today, but this is a 
strategic and smart, long-term investment for our country.
    If we want to have a resilient and strong America, we need 
resilient and strong people. And that's what Youth Corps 
produce. Our young adults work inside the most adverse climates 
and difficult challenging situations, some of them coming from 
difficult, personal lives, yet they find a way to persevere and 
rise above. They're given the skills and the pathways to be 
successful in life. And what gets me excited is that as they go 
out and they serve, they realize that life is not just about 
themselves, but it's about giving back and making the world 
around them a better place.
    So it's really exciting as we can see and celebrate them, 
it's not just their individual success that we're celebrating, 
we're celebrating the significance that brings to their 
communities, to our country and the world around them as they 
succeed.
    Thank you very much.
    [The prepared statement of Mr. Leong follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you, Mr. Leong. It is very impressive 
that your teleprompter was invisible as well.
    [Laughter.]
    Mr. Leong. Thank you.
    Senator Daines. Ms. Fultz Nordstrom.

             STATEMENT OF ANGELA FULTZ NORDSTROM, 
               VICE PRESIDENT, FEDERAL, NIC INC.

    Ms. Fultz Nordstrom. Good afternoon, Chairman Daines, 
Ranking Member Hirono and other members of the Subcommittee.
    Thank you for the opportunity to discuss how technology can 
help enhance the visitor experience and encourage the next 
generation to enjoy our federal recreational lands and waters.
    My name is Angela Fultz Nordstrom. NIC is one of the 
nation's leading providers of digital government services and 
secure payment processing solutions. We partner with government 
agencies to make it faster and easier for citizens and 
businesses to interact with government.
    On a personal note, as a native Montanan who grew up with 
the jewels of Glacier and Yellowstone, just a quick drive from 
my home in Fort Benton, I appreciated these tremendous public 
lands that were available to me. And think about it, back then, 
every aspect of planning and visiting a national park visit 
from researching the best time of year to go, to finding the 
fastest route, to deciding what activities to do while you're 
there, to purchasing your entry pass, were all done offline 
without the benefit of today's technology.
    Today, when I look at my suburban Nashville kids, who 
always have a phone in their hands and are looking, or within 
arm's reach, I wonder how can we ensure that they have that 
same appreciation and, more importantly, that access and desire 
to visit their national parks.
    In 2015, with the support and urging of many members of 
this Committee, the National Park Service set out to find ways 
to engage with the next generation of park visitors by making 
it easier for them to enter a national park.
    In December of that same year, NIC was honored and excited 
to be one of three companies chosen for the National Park 
Service ePass pilot program. Just eight weeks later, Acadia 
National Park became the first national park to accept an 
electronic park pass using the YourPassNow solution. In March 
of that same year, Colorado National Monument and Theodore 
Roosevelt National Park followed.
    Today, I'm pleased to share with you more results of the 
YourPassNow solution as part of the National Park Service model 
program. Through the guidance of the National Park Service and 
the leadership in each of the facilities, YourPassNow has 
expanded to include Sequoia and Kings Canyon National Parks, 
Castillo de San Marcos National Monument. Seeing a need to be 
filled, the U.S. Forest Service also joined the pilot. Today, 
they use YourPassNow to provide passes and permits for Columbia 
River Gorge National Scenic Area and Wayne National Forest.
    With every use of YourPassNow, the National Park Service 
and Forest Service are making it easier for the next generation 
to visit public lands. A typical YourPassNow transaction takes 
about 90 seconds to complete, and it generates a digital bar 
code that can be kept on a personal mobile device or printed 
out and placed in a vehicle. It can also be scanned by a park 
ranger to confirm its validity.
    By all accounts, the National Park Service pilot has been a 
success. In just the first nine months of 2017, passes, the 
combined passes that have been issued, are over 22,000 across 
just seven public lands. This is two and a half times greater 
than the number sold in all of 2016. And the same holds true 
for the first park, Acadia, which has experienced a 57 percent 
increase in YourPassNow sales from 2016 to 2017.
    But examples of the pilot's success to improve access don't 
stop there. We've heard from gate entry personnel that 
YourPassNow is being used by millennials as they enter in the 
parks. Most recently, YourPassNow was put to the test. The 
National Park Service announced the price increase of the 
Lifetime Senior Pass and they, of course, saw a tremendous 
surge in the amounts that were purchased. In just two weeks, we 
partnered with the National Park Service to enhance YourPassNow 
to support the online sales of the America the Beautiful, 
Lifetime Senior Pass. In just over a month, YourPassNow 
processed 635,000 Senior Passes, with 90,000 purchased in one 
day alone.
    Mr. Chairman and members of the Subcommittee, the National 
Park Service ePass pilot program has been a great success. It 
has worked to encourage the next generation to visit our parks 
and the agency should be applauded for their vision and 
leadership. As the results of their pilot demonstrates, current 
and future generations will use digital park passes to make 
their access easier. We're excited to partner with the National 
Park Service as they look for ways to use technology to make it 
easier for everyone to visit and engage with their public 
lands.
    Thank you for the opportunity to be here today.
    [The prepared statement of Ms. Fultz Nordstrom follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you for that Fort Benton wisdom 
today, too.
    Ms. Fultz Nordstrom. Absolutely.
    [Laughter.]
    Senator Daines. Mr. Rout.

  STATEMENT OF TIM ROUT, CHIEF EXECUTIVE OFFICER, ACCESSPARKS

    Mr. Rout. Good afternoon, Chairman Daines, Ranking Member 
Hirono and members of the Subcommittee, thank you for inviting 
me to appear before you today.
    My name is Tim Rout, CEO of AccessParks. I was asked to 
testify about attracting younger generations to our National 
Parks. I will do so based on my experience working and 
investing in technology startups for almost 20 years, providing 
broadband Internet coverage to millions of young people, 
sometimes in very remote locations, and lastly, as a lifetime 
visitor of the parks.
    If I convince you of only one thing in these five minutes 
is that the next time you see a millennial in the national 
park, focused on the screen of their phone, you should not view 
it with disappointment. You will hopefully view their mere 
presence there and the connectivity they enjoy as a crucial 
first step in customer engagement and an opportunity to shape 
their future relationship with the national parks.
    First, the problem of lack of broadband connectivity in the 
parks. Young people today expect to engage with the world 
through rich online media experiences and expect to be able to 
create and share their own content, in real time. They are 
hyperconnected to their networks of friends and family and if 
they can't share their own impressions as they travel and 
receive instant feedback, the experience might as well never 
have happened.
    Augmented reality, as you can hear from some of the other 
witnesses, is the next big evolution in how we will all engage 
with the world. It is the next big thing.
    While the father of the parks, John Muir, can immerse 
himself in the wilderness for months on end, today's visitors 
seek a different type of immersive experience. They seek not 
just scenery, but also information. Augmented reality can 
provide an information overlay to the physical, showing 
measurements superimposed on a giant Sequoia tree, 
reconstructed images of the Grand Canyon's evolution over the 
millennia and the location of trailheads shown on a landscape. 
Most of this requires broadband connectivity.
    Today, every consumer-facing organization is obsessed with 
customer engagement, viewing it as essential to their long-term 
survival; however, most national parks make online engagement 
all but impossible due to lack of broadband connectivity in 
highly visited, frontcountry areas. This reduces the park's 
ability to engage with visitors before, during and after people 
visit further risking the future of park advocacy. Without the 
parks at the top of young voter's issues list, the situation 
absolutely risks the future existence of the parks in their 
current form.
    There are solutions to the connectivity problem. It is 
possible to streamline the adoption of innovative business 
models and broadband connectivity and to enable media 
engagement among visitors. We can close the digital gap in the 
parks, fostering long-term relationships with its patrons. 
Private sector technologies have already shown us the way.
    I'm a spiritual disciple of John Muir but also a pragmatic 
follower of the first park director, Steven Mather. Director 
Mather was what we in the tech world would describe as an 
innovator. He understood the power of engagement to bring 
future supporters to the parks. Without new visitors who were 
personally touched by the parks, he knew they would inevitably 
be eroded. He was not afraid of experimentation or occasional 
failures. Mather's experiments with attracting visitors 
included dubious projects such as building a zoo and even a 
racetrack in the parks.
    However, despite some opposition at the time, his enduring 
successes were in building access infrastructure. Dozens of new 
roads into the parks such as the awe-inspiring Going-to-the-Sun 
Road in Glacier National Park, which today allow millions of 
visitors every year to experience the park. He hired artists to 
oversee road construction so they blended with the scenery. He 
also built over 1,600 miles of telephone and telegraph lines 
into the parks. Broadband access today should also be viewed as 
access infrastructure, although it does not require digging up 
the landscape or using taxpayer funds. Today, 100 years later, 
connectivity has barely progressed beyond Mather's time. Real-
time road conditions are still only available by telephone in 
many parks.
    Infrastructure exists today in every park to achieve 
broadband connectivity in the frontcountry. Solutions include a 
low footprint combination of pre-existing telecom towers and 
Wi-Fi technologies, having virtually no negative visual impact 
for visitors.
    At Lake Mead National Recreation Area, my company's public-
private partnership is providing broadband Wi-Fi to 
frontcountry areas within a 250-square mile park that 
previously had almost no connectivity. Visitors, concessioners 
and employees have responded with enthusiasm.
    Once broadband exists in parks frontcountry, there are 
untold opportunities to improve the park experience in general. 
Thousands of smart entrepreneurs and park advocates will use 
technology proven in the private sector to incentivize use of 
green, public transportation, reduce congestion, drive 
visitation to less visited areas and less visited parks, 
provide multilingual guides, allow crowdfunding of 
infrastructure, reduce seasonality and deliver real-time park 
information.
    In conclusion, the next time you see a millennial or anyone 
else for that matter, in a national park looking at their 
phone, be thankful we've succeeded in luring them there. Then 
ask yourself how are we ensuring that what they're viewing on 
that phone is offering a media-rich understanding of the park 
and how can we engage with them when they leave because 
advocacy by younger generations is the single most critical 
factor in national park conservation.
    Thank you very much.
    [The prepared statement of Mr. Rout follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you, Mr. Rout.
    Mr. Shafroth.

  STATEMENT OF WILL SHAFROTH, PRESIDENT & CEO, NATIONAL PARK 
                           FOUNDATION

    Mr. Shafroth. Thank you, Chairman Daines, Ranking Member 
Hirono and members of the Subcommittee. Thank you for holding 
this important hearing and inviting me to participate.
    I'm Will Shafroth, the President and CEO of the National 
Park Foundation. We are the Congressionally chartered, 
philanthropic partner of the National Park Service, chartered 
50 years ago this December.
    As America becomes younger and more diverse connecting the 
next generation of our national parks and developing in them an 
appreciation and love of these great places is vital to the 
park's future.
    That's why leading up to last year's Centennial of the 
National Park Service and continuing through today, the 
National Park Foundation has been working closely with our 
partners at the Park Service to develop and execute the Find 
Your Park public education and engagement campaign. In the 
spring of 2015 we launched the Find Your Park/Encuentra Tu 
Parque campaign to engage Americans and encourage them to find 
their park at one of the 417 national park units located in 
every state and territory in the United States. The goal was to 
increase visitation to our parks with a special focus on 
millennials and diverse audiences. The campaign used earned and 
donated media, National Park Service with celebrity 
storytellers, members of Congress, social media influencers and 
social media channels to spread the word and engage all 
Americans, but especially millennials because that's how they 
communicate. The campaign was funded entirely by corporate 
partners.
    By all accounts the Find Your Park campaign was and 
continues to be a success that's helped drive a record 331 
million visits to national parks in 2016, up from 292 million 
in 2014 before the campaign started. And the Park Service and 
the Foundation national social media channel followers have 
increased by 1.8 million people since 2015. Most importantly, 
one in three millennials reported being familiar with the Find 
Your Park campaign. That's actually a big move from zero when 
we started.
    Our work to engage the next generation continues with the 
current iteration of Find Your Park called Parks 101. Lena 
McDowall said something about this earlier. This effort is 
designed to spread out visitation that many of our crown jewel 
parks, many of which you all represent--Yellowstone, Yosemite, 
Acadia, Rocky Mountain, Glacier, Great Smoky--saw in 2016 and 
to highlight and promote some of the lesser known parks and 
stories throughout the National Park System.
    As more than one superintendent told us, ``Find Your Park, 
yes, but find somebody else's park. Mine's too crowded.'' And 
we heard that a lot. Highlighting lesser known parks that tell 
interesting stories or compelling places like Hamilton Grange 
in New York City, Monocacy Battlefield in Maryland and Crater 
Lake National Park in Oregon provides the opportunity for 
younger Americans to find their unique connections to these 
places which are often close to home.
    It's not enough to just promote our national parks and 
educate people about them, we must also ensure that we are 
investing in our parks to improve the visitor experience. The 
Centennial Campaign for America's National Parks, run by the 
Foundation, began in 2013 with a goal of $250 million over five 
years. As of today, the Foundation has raised $430 million 
toward a new goal of $500 million. Working hand-in-hand with 
the National Park Service, this money is being spent to improve 
the visitor experience through the rehabilitation and repair of 
trails, restoration of historic buildings and memorials, 
protecting special places, connecting young Americans to parks 
and supporting youth and veteran corps to enhance our parks.
    While our experience and fundraising shows that there's not 
significant philanthropic sport for projects like roads and 
bridges, donors have supported projects involving restoration 
of historic buildings and trails and the protection established 
from the special places. Recent projects include: restoration 
of parts of the Many Glacier Hotel in Glacier; rehabilitation 
and reconstruction of the Bierstadt Lake Trail at Rocky 
Mountain; restoring the Chimney Tops Trail in Great Smokies; 
supporting Youth Conservation Corps in Mount Rainier and 
Olympic National Parks; repairing the Middle Emerald Pools in 
Zion; and even developing, as Senator King knows, a campground 
at Schoodic Woods in Acadia National Park. We helped facilitate 
that project.
    The Foundation's also dedicating funding to getting young 
people into parks, many for the first time by providing 
transportation grants through Every Kid in a Park. To date, 
we've raised and spent more than $5.5 million in grants over 
the last three school years which has allowed more than 500,000 
fourth graders to access our national parks and other public 
lands. These grants have gone to Glacier, Hawaii Volcanoes, 
Chaco Culture and Petroglyph, Cuyahoga Valley and many dozens 
of other national parks throughout the system. For many of us 
our love of parks began in the back of a station wagon, it did 
for me, during a family vacation on the way to Mesa Verde 
National Park. Programs to engage young people and their 
families, like Every Kid in a Park, spark a love of our parks 
today and in the future.
    Our work engaging the next generation did not begin or end 
with the Centennial. Our work on all our projects and programs 
continues to do work to identify new opportunities and new 
partners. This means working even closer with partners, 
including concessionaires, friends' groups, service corps, 
volunteer organizations and corporations. It means exploring 
connectivity in parks to improve the visitor experience through 
technology for things like Wi-Fi accessibility and education 
and interpretation platforms. It means utilizing technology and 
the Park Service staff to bring parks to people, especially our 
youth. And it means providing more opportunities for 
volunteers, especially veterans and youth, to invest their 
time, passion and expertise across the system.
    We understand and embrace the importance of engaging the 
next generation of visitors to experience our national parks. 
Our work and partnership with the Park Service and so many 
others has already yielded great dividends and we look forward 
to continuing its work with you all.
    Thank you very much.
    [The prepared statement of Mr. Shafroth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you for your testimony, Mr. Shafroth.
    My experience was also a station wagon. It looked a lot 
like the Griswold's.
    Mr. Shafroth. Yes.
    [Laughter.]
    Senator Daines. I am going to start with questioning from 
Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman, for your 
courtesy.
    Thanks to all of you. This is very interesting to me, and I 
thank you for your suggestions.
    Let me express a couple of concerns and let me ask you just 
to respond to them in the time that I have, Mr. Rout and Ms. 
McDowall, particularly. Two concerns.
    First, I remember going through the Grand Canyon when the 
only form of communication was the telephone booth in the 
middle. I was Governor at the time. I spent two weeks. It was a 
nice experience, not to be weaned away from instant contact 
with the rest of the world.
    I remember when I was fishing/camping in Canada when it 
didn't have an internet and the difference it is today when my 
staff can get a hold of me, you know, instantly with whatever 
the current atrocity of the day is in Washington, DC.
    I remember being dropped off at the top of the Great Smoky 
Mountains as a 15-year-old walking through the snow knowing 
that I was on my own and nobody could find me. I was really--it 
was really an experience away from everybody else.
    So, one set of concerns I have has to do with the purpose 
of having some places in America where you can retreat and not 
have the place completely interconnected. I know technology is 
a wonderful thing, but I am among those Senators who do not 
want to see cell phones on airplanes because I do not want to 
be sitting next to somebody flying for five hours while they 
tell me their innermost secrets over the phone.
    Give me an idea about how you combine that or how you 
separate that? I mean, do you think of Boundary Waters Canoe 
Area as a place where you allow less things to happen and 
Voyagers right next to it as the place where there might be 
more connectivity?
    And then let me go to what I think is an easier problem to 
solve and that is the visual part. I have a hang-up about 
having spent a century in America creating great vistas in the 
West and then we came along and littered it with these giant 
wind turbines as if it were some environmental advantage. Let's 
put them to the side. We also went to Yellowstone and put a 
cell tower up right next to the geyser. And I worked with the 
Congressman from Chattanooga to stop a 150-foot cell tower on 
Missionary Ridge. The next thing I knew they were adding a 180-
foot cell tower right at the entrance of the Great Smoky 
Mountains National Park.
    A big part of what is wonderful about our parks and our 
great American outdoors is the visual experience. So what can 
we do to avoid massively intruding on this infrastructure in a 
way that destroys the beauty of our national parks? I know we 
have had to build roads. I know we have had to put in telephone 
lines, but what can we do about those two things: the 
individual experience being destroyed because of suddenly 
everybody is connected, and then the visual experience of 
viewscapes and landscapes?
    Mr. Rout, let me start with you.
    Mr. Rout. Certainly. Thank you for the questions, Senator. 
And you're right to ask those questions. I think they're on a 
lot of people's minds.
    I can only express my opinions given my background in 
technology and my background in the parks. I share your love of 
the backcountry. I spend most of my time in the backcountry and 
so does my family. I also wish you could only access Yosemite 
Valley by horseback. But 98 percent of the folks who visit the 
parks, as my understanding, is they don't go to the 
backcountry. They're mainly in the frontcountry.
    So I should be clear about what we do or what my company 
does. We focus exclusively on frontcountry areas where they do 
have roads, restrooms. They have a deli that will make you a 
turkey sandwich. There are all sorts of modern comforts of home 
in these areas already. So that would be the first point that I 
would make. And we can make this infrastructure blend with the 
surroundings, as I referred to Director Mathers' efforts with 
the roads. Going-to-the-Sun Road was overseen, the construction 
was overseen, by artists. So we can do that.
    Senator Alexander. Well, give me an example of what you 
could do about cell towers because I had a Congressman working 
with me.
    Mr. Rout. Yup.
    Senator Alexander. We did not do a very good job of doing 
anything about a big, ugly cell tower at the entrance to the 
Great Smoky Mountains National Park where a million people come 
through every day. What are you doing about that?
    Mr. Rout. Well, first of all, I believe providing broadband 
to the frontcountry areas does not require building new cell 
towers. Right off the bat. My personal belief is that cell 
towers, when they are built, should be built away from 
frontcountry areas, out of sight, if they are going to be built 
at all.
    But what I do is more Wi-Fi which can be considered more of 
a laser focus in the frontcountry areas. We don't build a huge 
tower and light up an entire park like a light bulb. We're much 
more focused. We hide Wi-Fi radios where nobody can see them 
and we provide that broadband only where people sleep, for the 
most part, or where they congregate in great numbers. So, it 
can be hidden.
    And if, you know, people always have the option of turning 
their phones off, as I do many times. And I hope, I would hope, 
that more people do, if that's what their desire is, but I 
think that you have to follow the customer.
    And these days, if you're looking for visitor engagement 
with millions of new visitors to the parks, the younger 
millennials, you have to bring them to the parks and 
communicate to them in the language that they understand.
    Senator Alexander. Yes. My time is up.
    Mr. Rout. Yup.
    Senator Alexander. I appreciate your response, and I thank 
the Chairman for his courtesy.
    Mr. Rout. Yup.
    Senator Alexander. Ms. McDowall, maybe you can give me a 
written response to that at some point.
    Ms. McDowall. Yes.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Daines. Thank you, Senator Alexander.
    Ranking Member Hirono.
    Senator Hirono. I would like to yield to Senator King.
    Senator King. Thank you. Thank you for the courtesy, 
Senator.
    First, Ms. McDowall, I want to convey through you, my 
compliments and thanks to the thousands of National Park 
Service personnel there.
    [Photo of Acadia National Park website follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator King. They are the face of the parks, and they are 
wonderful. Everywhere I have been in parks all over the 
country, in the West, in the East, it is the people and their 
passion, as well as the grandeur of the site, that engages 
people. I saw my kids just light up when we were down at Kitty 
Hawk and out West at Bryce and Grand Canyon. So, please convey 
that. We cannot lose sight of how important those people are.
    I just want to make a point of how excited I am about the 
pass program. I can tell you exactly how long it takes, some of 
you may have noticed I was typing away at the beginning of the 
hearing. It takes almost exactly the length of a Steve Daines 
speech to download a park pass.
    [Laughter.]
    Because that is what I did. I downloaded a park pass while 
the Chairman was making his introduction, and it is a pass to 
Acadia. I guess I am obligated to go up there this weekend 
because I paid for it.
    [Laughter.]
    But I do have one minor, technical nitpick. When you finish 
the process, you get the bar code and the pass. You ought to 
have a button that says add to Apple Wallet or add to wallet so 
you just touch it and it goes because then otherwise you have 
to put it in your photos and remember where it is. That's just 
one little extra technical step that, I think, would make it 
handier, again, using the model of the airplane passes.
    I think Senator Lamar Alexander raises a really serious 
question about how we make it accessible and engaging, this 
experience, while at the same time not harming or diminishing 
the experience. The same thing goes with our very popular 
national parks, where there are so many people that that, in 
itself, diminishes the experience.
    We have to think about how to promote parks in off times of 
the year, parts of the park that may be less well known so 
everybody at Acadia doesn't go to the top of Cadillac Mountain 
on the same day. For example, at the Grand Canyon, everybody 
doesn't go to the South Rim. Perhaps we can find ways to move 
people to the North Rim.
    I commend all of you for the good thinking that you are 
doing and hope that we can continue to--we have a business in 
Maine and over every door it says, think of yourself as the 
customer. I have always thought that is an awfully good way to 
think about these things. What are the people who are coming to 
experience this looking for? How do we give them connectivity 
when and where they need it without having the phone out on the 
trail looking at Half Dome? As a camera, yes. As a conversation 
tool, maybe not.
    But I certainly appreciate what you are doing and hope that 
the Park Service will continue.
    Do you have plans to expand what is now a pilot program 
with the mobile passes?
    Ms. McDowall. We do have plans to expand. We're looking at 
some of our larger parks next that have the more sophisticated 
point of sale systems and have good connectivity at the 
entrance stations. And then we'll be moving to expand beyond 
that during the course of the next year as we upgrade point of 
sale systems in other parks.
    Senator King. One of the reasons I was so pushy about this 
with Secretary Jewell was I think we are leaving money on the 
table in at least some national parks from people that are 
willing and want to buy passes but it is awkward where you get 
them, how you get them, whether you really need them.
    [Photo of online YourPassNow follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator King. This is a way that people who are staying in 
a hotel nearby the park can say, ``How do I get a pass? Oh, 
it's right here.'' So I believe it also can be a significant 
revenue producer for the parks.
    Ms. McDowall. Yes, I think the Park Service would agree 
with that. There are places where there may not be an entrance 
station. We, maybe, have had an iron ranger in the past where 
someone was supposed to put something in a box. It's much 
easier for them to get a pass ahead of time, particularly since 
a lot of visitors are now planning their trips and wanting to 
make a lot of their arrangements before they arrive. So we are 
finding that to be useful.
    Senator King. Well, thank you for all your work.
    I want to also thank the Foundation, because you all do 
just incredible work and, as you say, without taxpayer money. 
It is wonderful the promotion that you do. So my compliments 
and let me put it in my wallet and then we've got it made.
    [Laughter.]
    Thank you all very much.
    Senator Daines. Thank you, Senator King.
    It is only fitting we start with our two Governors here 
with the questioning. I know they share respective passions for 
our national parks.
    Thank you, Senator King.
    I must say, too, as I heard Senator Alexander talk about 
the mixed emotions he has about improving connectivity in the 
parks, I share that. As much as I love technology, you know, I 
was in the cloud computing business for 12 years, I am a 
backcountry guy at heart. And one thing I enjoy sometimes when 
taking my children to our national park is the fact their 
phones don't work.
    [Laughter.]
    But I also see the incredible potential and the value of 
technology as we go forward.
    I have seen how technology can transform lives and 
transform economies, transform experiences, so I think we need 
to embrace it and carefully and thoughtfully think about where 
we go next and how it can attract younger visitors. I recognize 
sometimes we could be accused of being Luddites if we don't 
think of where this next generation is at and how we engage 
them and bring them into our parks and how important that is. 
How we can diversify the populations of our national parks by 
embracing technology.
    Emergency communication is very important, so we see what 
goes on in our parks.
    Visitor passes and even dealing with deferred maintenance. 
The fact that we are doing some highway construction, visitors 
know that immediately and can reroute in real time. That makes 
a lot of sense.
    And we want to protect the unique characteristic, the 
pristine character of our national parks. How do we do that 
without taking away what we all value about our parks?
    But I think at the end of the day without access to 
reliable, broadband services where it makes sense, many of the 
programs, the services that we talk about today will be very 
difficult to implement.
    Let me start with a question probably for Mr. Rout. What do 
you think are some solutions to overcoming the infrastructure 
barriers that we have today to expand fixed broadband and 
wireless networks into the Park Service, where it makes sense?
    Mr. Rout. Thank you for the question, Senator.
    So, in terms of infrastructure, for what we do, we usually 
don't require any new infrastructure in any of the parks. In 
our mind, the existing infrastructure is perfectly sufficient 
for bringing broadband Wi-Fi to the frontcountry areas, the 
most visited areas. That's not to say that we don't use a cell 
tower if it's available, as a relay station, but the vast 
majority of the time we do not need new construction.
    It seems to me that in some cases where towers have had to 
go up, not necessarily for our business, but for others, 
perhaps, the reason they exist in the frontcountry areas, where 
everybody can see them, as was Senator Alexander's point, at 
Old Faithful, is ironically because you're not allowed to 
install those towers on wilderness area. You're only allowed to 
install them in previously developed areas. They could easily 
have hidden the tower up on a hill somewhere, you know, hidden 
by trees, or not completely hidden, but where nobody could see 
them.
    So, I think that's the ironic part about constructing new 
towers. But as I said, that's not really our business.
    But in terms of bringing infrastructure to all the parks, 
there are some that will be profitable and there will be some 
that will be unprofitable for an internet service provider. I 
think the important thing is to view everything on a regional 
basis and to allow a provider to have, not only the most 
profitable, but also a responsibility to cover the least 
profitable, most remote areas of a park or the most remote 
parks in that region. If folks are allowed to cherry-pick the 
best ones, nobody will ever choose to go to the more remote 
ones.
    That has been my experience, was my experience, in our last 
venture with the military and that's how the military did it, 
was a strategic regional approach that ensured that everybody 
was covered, no matter where they were.
    Senator Daines. Thank you.
    I want to shift gears and talk about how we build better 
diversity in terms of visitor population to our parks.
    Ms. McDowall, the Park Service had record visitation, 
congratulations, during its Centennial in 2016. We love our 
national parks, and you could see it.
    I go to Yellowstone Park a lot because it is very close by 
to my home town and where, oftentimes, it is a take-off point 
for backcountry trips.
    More and more people are visiting the parks, but a study by 
the 2015 Outdoor Foundation found that 75 percent of Americans 
who participate in outdoor activities are Caucasian. What is 
the Park Service doing to bring in a more diverse group of 
individuals?
    Ms. McDowall. Thank you for that question. There are quite 
a few things that the Park Service is doing.
    One, you saw a lot of those efforts during our Centennial 
effort, and I'm sure that the Park Foundation would be able to 
speak to some of this as well. A lot of the marketing efforts 
and social media outreach and events that the Park Service did 
during our Centennial were geared toward different populations 
that had not been traditional park visitors in the past. The 
Park Service feels like we got a lot of exposure with those 
communities and we are hoping that it does translate into more 
park visits and into, you know, future enthusiasts for parks, 
from groups that have not traditionally been big park visitors. 
So that's on the marketing side of the house.
    I think on getting actual visitors into parks and having 
those deeper experiences that continue over a lifetime, a lot 
of the youth programs that we have been engaged in are efforts 
that, I think, are going to bear fruit in the future. If you 
look at some of the demographics of the Park Service compared 
to some of the groups that we work with, like the Student 
Conservation Association, for example. I think the Park 
Service, as you mentioned, is, you know, 70, 80 percent 
Caucasian when you look at our employees. But the Student 
Conservation Association, when you look at their participants 
and some of the Park Service youth programs, they have a much 
higher percentage of diverse participants than we would see, 
necessarily, in our own employee base. Those programs are great 
feeders for the Park Service in getting employees for the 
future.
    I, myself, came out of a Park Service internship program 15 
years ago. And I think those are opportunities, not only to 
connect with folks who might have had experiences growing up in 
parks, which I did, but also individuals who that might be 
their absolute first exposure to parks. And a lot of people get 
hooked. We have programs like that all over the country in 
parks everywhere. We've got national agreements. We have 
individual relationships that parks have with organizations and 
those are, that's probably one of the biggest areas where the 
Park Service focuses.
    The other thing that we've been doing is making sure that 
we are telling stories that reflect a wide variety of 
experiences to cover the entire American experience as a way to 
attract more individuals to parks, that they see their story 
reflected into the places that we're protecting and the stories 
that we're telling.
    So, I think there are a lot of things that are happening 
that we are very hopeful are going to be successful.
    Senator Daines. Thank you, Ms. McDowall.
    Time flies when you are talking about National Parks.
    Ranking Member Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Ms. McDowall's testimony indicated that only seven percent 
of the National Park Service workforce is under 29 years of age 
while 75 percent are over the age of 40--nothing wrong with 
that. But it just goes to show that we need to have, develop, a 
cadre of young people who will want to go into service. So this 
leads me to my question for Mr. Leong.
    Kupu has been very successful in engaging youth and 
achieving the dual goals of stronger communities and stronger 
national parks, and you noted in your testimony that many of 
your participants go on to do jobs or to work in those fields.
    Can you tell a story about a person who, after being with 
the Corps, changed his or her life or career goals? And what is 
it about your program that engenders that kind of change?
    Mr. Leong. Thank you for the question, Senator Hirono.
    That's a great question. I think that what today's 
discussion has been circling around is engaging people in the 
outdoors. And I think there's a beautiful duality here in that 
we're meeting Secretary Zinke's goals to make the parks more 
user friendly through engaging infrastructure and technological 
experiences, but at the same time it's about getting young 
adults out there as well too. And there's something that's 
beautiful to have the wilderness in our souls and we can get 
out and connected and also giving back and making a difference.
    I think that, to answer your question, Senator, it's that 
opportunity to get out there and to realize that they have the 
potential to give back and make a difference that really helps 
to open up eyes.
    We've had young adults on Hawaii Island that just barely 
graduated. One young man, in particular, that comes to mind, 
just finished up in Haleakala and was not sure where he wanted 
to go. He became part of our program and he got a chance to 
work in a variety of different locations across the island, 
including in the national parks. What was really exciting about 
that is he was a hunter and a fisherman all of his life but 
didn't think that he could qualify to go off to college and he 
was going to work at the gas station afterwards. I think what 
was really neat is that being out there he was able to show 
some of his crewmates, one of them who was heading off to 
Stanford, about the natural resources, how the trails work, how 
to look for invasive pigs, what things, what signs in the 
forest to look for, for healthy forests. It was just really 
exciting that that empowered him. It was an equalizer for him. 
It was exciting to see that this young man, not only did he 
finish up our program, but then because of this, it encouraged 
him to go off to community college and now he's employed at the 
U.S. Fish and Wildlife Service. So it's really exciting. And 
the person that went off to Stanford is working at the 
Department of Land and Natural Resources. It's really neat 
because, I think, it's an empowerment opportunity as these 
young adults are getting out there.
    As Ms. McDowall said, it gives them that opportunity to 
give back, to get a chance to get outside, but also realize 
their potential as well, too.
    Senator Hirono. How do you keep track of where they go, 
what they do, after they leave your Corps experience?
    Mr. Leong. It's basically through surveys, and we try to 
keep in touch. And we use technology for that. We also use 
technology to keep people engaged on social media. So, not that 
we get 100 percent response rates, but we do try our best 
through email, social media and other areas to get surveys.
    It's exciting we're seeing that. We do a five-year survey 
once they finish our program, and what we've found is that 
there's high levels of engagement even five years afterwards. 
Eighty to 90 percent of them are still engaged in a related 
field or education area. They're engaged in service and they 
care about these issues and they become lifelong advocates for 
the outdoors.
    Senator Hirono. Which leads me to a question for Ms. 
McDowall.
    Does the Park Service track the youth once they participate 
in a youth program to see if they do go on to related work 
arenas?
    Ms. McDowall. Some of the individual programs do track. We 
don't have a method to track all interns and all participants 
in youth programs across the service. Some of the smaller 
centralized programs that have fewer participants, it's easier 
for us to follow up with those individuals to see where they 
end up. But unfortunately, no, we don't have something that 
covers all participants across all of our programs.
    Senator Hirono. Maybe that is something that can be 
encouraged, just as Kupu follows up.
    I know that one of the goals is to have a more diverse 
group of people going to the national parks, so I know you are 
doing outreach efforts along those lines. How do you keep track 
of whether these, your outreach efforts, are succeeding? Do you 
have a way to determine who comes to the parks by demographics?
    Ms. McDowall. We are still working on the best way to do 
that.
    The last comprehensive demographic survey the Park Service 
did was in 2008-2009, so the data we do have is fairly old. The 
Park Service is finalizing plans for a pilot that would allow 
us to start tracking that information on a more regular basis.
    We would agree that having more information about who our 
visitors are would be helpful for management, for programming, 
for a wide variety of things. We just don't have it in the way 
that we would want it yet.
    Senator Hirono. Is there a timeframe for when you will be 
able to obtain that kind of information to inform your 
decisions?
    Ms. McDowall. So, I don't have the timeline for when that 
new pilot will start. I do know that we are doing another 
comprehensive study in 2018, so we will be updating the data 
from 2008 but it will be based on the older survey model.
    Senator Hirono. I commend you for that.
    I also want to add, my time is up, but I wanted to thank 
the Foundation for all that you all do because I have met with 
Foundation people in Hawaii and they are a very committed group 
of people. So, as we say in Hawaii, Mahalo Nui Loa.
    Thank you, Mr. Chairman.
    Senator Daines. Thank you, Ranking Member Hirono.
    Senator Heinrich.
    Senator Heinrich. I want to start by thanking the Chair and 
the Ranking Member for having this hearing, because I think it 
has been a really thoughtful discussion about a number of the 
things that we face to keep our parks as relevant for all 
Americans, as they should be. I thought the conversation around 
technology, in particular, is something we need to be grappling 
with now.
    I got a chance to spend some time with my boys in Grand 
Teton and Yellowstone National Parks this summer for a few 
days. My boys took this picture of a mother grizzly bear and 
cubs. They were not as dangerously close, Senator Daines, as 
they look in the photo.
    [Laughter.]
    It was actually through my spotting scope, but I think that 
is an example of an appropriate use. Had they been playing 
Clash of Clans and ignoring the grizzly bear, I think, that is 
the kind of technology use that we all worry about in those 
situations.
    I have been very impressed with the conversation with our 
colleagues in getting at how do we really get at that balance.
    I think the issues that we are facing with workforce and 
making parks relevant to the entirety of our population, the 
things that Ms. McDowall has said, that Mr. Leong has said, I 
think, are really important in informing us of where we should 
be making investments right now.
    I was actually an AmeriCorps member with the Fish and 
Wildlife Service back in the 1990s. And one of the things I am 
excited about, and it is very consistent with what I heard from 
you, Mr. Leong, is how more recently I have seen these 
AmeriCorps service groups where we have Pueblo youth doing 
restoration in a place like Bandelier National Monument and 
making connections to their own culture that were never, never, 
made before or getting to visit Chaco Culture National 
Historical Park for the very first time in their lives.
    That I see as an enormous opportunity to diversify our 
workforce going forward because that is the feeder for turning 
the switch to say, you could have an entire career in natural 
resource management and to see whether it is a native Hawaiian 
or a native American realize they have a whole skill set that 
they didn't realize was incredibly valuable, is a great 
opportunity.
    I think we need to recognize sometimes these AmeriCorps 
programs and other service corps programs become a target in 
Washington, and they leverage so much value to our parks. We 
need to preserve that.
    I want to ask Mr. Shafroth, because the National Park 
Foundation has done such a great job of leveraging millions of 
dollars of private funding to do a number of different things, 
I wanted to ask you about Every Kid in a Park program because 
that has become, really, a hallmark experience for American 
youth in their fourth-grade year. I was really proud to join 
Senator Alexander, who was just with us, to introduce the Every 
Kid Outdoors Act to try and make sure that that program 
continues.
    Given that the Park Foundation's transportation grants for 
Every Kid in the Park have generally brought students to parks 
and public lands within driving distance of their home, do you 
see a role for that program in increasing visitation to some of 
our lesser known units?
    Mr. Shafroth. Thank you, Senator Heinrich. That's a good 
question.
    Yes, I do. In fact, it's our attempt to, kind of, marry 
some of these different programs. We talked about the Parks 101 
program which is, in fact, both to educate people about and get 
them to go to these lesser known parks to spread out the 
visitation, number one. But also, equally importantly, to have 
people appreciate the amazing stories that these smaller and 
lesser known parks have.
    And so, yes. In fact, in many cases. For example, in Utah 
we recently received a $1 million grant from the Echols 
Foundation to work to get Salt Lake City, mostly Title I school 
kids, out to the diversity of places within a three-hour drive 
of Salt Lake City.
    So it could be an all-day effort or it could be a weekend 
kind of thing to focus mostly on elementary age kids, but also 
junior high and high school kids, depending upon where they 
are. But recognizing that every place that we want to go isn't 
necessarily within a short drive.
    Senator Heinrich. Right.
    Mr. Shafroth. And so, we've got to diversify those 
offerings.
    Senator Heinrich. Related to that, Ms. McDowall, I 
understand that while Every Kid in a Park has been extended for 
2017-2018, the Department of the Interior intends to phase it 
out the following school year. Is that accurate, or do you have 
plans for Every Kid in a Park for the 2018 and 2019 school 
years?
    Ms. McDowall. So the Department has not made a decision on 
whether to continue the Every Kid in a Park program. It is 
undertaking a larger evaluation model, not a formal review but 
a look at all of the various youth programs that we have going 
on in the Department and evaluating them against the various 
funding priorities, things like deferred maintenance and some 
of the IT infrastructure issues we talked about. All of these 
things can help with getting new audiences in the parks and 
getting youth into parks. And it's a matter of deciding which 
ones make the most sense, given the priority.
    Senator Heinrich. Well, I would just deeply encourage you 
to continue that program, because these fourth-graders are the 
future of our parks.
    Senator Daines. Thank you, Senator Heinrich. I commend you 
on practicing safe selfies with your boys.
    [Laughter.]
    That is something we see when we enter our national parks 
in Yellowstone because those bison can sometimes look rather 
tame. And it turns out, they are not always when you get too 
close to them.
    Ms. Nordstrom, I want to chat with you for a moment about 
the difficulties that you have encountered, if any, when 
implementing the online park pass system. Anytime you do a 
pilot program there are great learnings, having been in the 
software business for 12 years, you decode the break/fix cycle 
here to continue to make improvements in the next generation. 
Maybe you could talk a little bit about the challenges you 
encounter, connectivity, where do you see the program going in 
the future, and perhaps, how it can be used to address traffic 
challenges?
    Ms. Fultz Nordstrom. Thank you, Senator Daines.
    So, yes, absolutely. Anytime I think a government engages 
in a new program, and through our 25 years of working with 
government agencies, we find that we look for where we can take 
advantage of a quick success and then continue to build on 
those challenges which we like to call ``enhancements.''
    And I think that that's what we found with the YourPassNow 
program is that in addressing things like with Acadia, for 
example, when that solution first deployed we had the 
opportunity that the park rangers could scan the device, or 
scan the pass with their device, to ensure its validity. One of 
the things that we noted is that the actual scanning devices 
that they were using sometimes didn't work as well as they 
needed them to. They needed to be more fluid.
    So, NIC through our private--public-private partnership and 
the way that we believe that digital government services work 
best, is we continue to enhance those services to meet the 
needs. And that's what we've seen as we've deployed across all 
of the different pilot locations is that each park has a unique 
need and each of those can be addressed.
    I think the opportunity becomes, as the expansion 
continues, the opportunity becomes how do we use that data to 
also enhance the experience of the parks themselves to manage 
those visitors?
    We're collecting great data on behalf of the National Park 
Service. For example, when you purchase your pass you choose a 
time period that you're going to be there. That gives the park 
rangers and the park managers an opportunity to think about and 
look and use that data to their advantage for entry 
opportunities.
    I think there's more steps to come. We're just at the very 
beginning, but we're excited about what the future could hold.
    Senator Daines. Thank you.
    I think trying to find ways to accelerate the entrance 
process would be greatly appreciated. I go in and out of 
Yellowstone a lot. You have a fast pass line and maybe some 
folks like to talk to the ranger and get the maps and have the 
conversation. Others want to get in there as quickly as 
possible. Maybe having that choice would be a great 
enhancement.
    I wanted to just come back to this. I think we have had a 
thoughtful discussion today about how do we maintain the--why 
do we go to the national parks in the first place--the outdoor 
experience, the solitude, seeing wildlife and amazing vistas. 
At the same time, technology is an incredible asset, but 
perhaps sometimes a liability and maybe, Mr. Shafroth, just 
think about our values there. How do we, when you think about 
in the Foundation, you know, there are tradeoffs here as we 
look at it and just maybe expand, your expanded views would be 
appreciated.
    Mr. Shafroth. In terms of the values of our--the technology 
versus the solitude? It was interesting, I was listening to 
Senator Alexander and I actually go to Voyagers National Park, 
each of the last seven years, and so I know what he is talking 
about. And we actually have to paddle six miles to find one 
bar, but we know if we are willing to work for 45 minutes----
    Senator Daines. You mean a bar on your cell phone?
    Mr. Shafroth. A bar on my cell phone.
    Senator Daines. Okay, I was----
    Mr. Shafroth. I'm sorry.
    [Laughter.]
    Senator Daines. Yes. In Montana, you have to paddle that 
far, not only to find a bar, but I get it. No, it's a 
technology discussion. There we go. Yes.
    Mr. Shafroth. We portage our bar with us.
    Senator Daines. Yes, I got it. Right.
    Mr. Shafroth. But we have one bar on the cell phone. It's 
about a 45-minute paddle to get to that.
    Senator Daines. Yes.
    Mr. Shafroth. We have to work for it, and I appreciate what 
he's saying because we don't want to have overly accessible, 
too much access.
    And I think Mr. Rout agrees. He and I have had a chance to 
talk about this is that, but around the visitor's centers, 
around the parking lots and even having some ways to have a 
relay station on the trails so you can get an update on options 
when you're out there. That does not really interfere with your 
experience and frankly, more importantly, other people's 
experience of cell phone chatter or people on their phones the 
whole time.
    So I think that there's a balance here that we have to find 
and I think, you know, our, the non-profit community working 
with the Park Service and private or entities could find that 
balance.
    Senator Daines. Thank you.
    Ms. Fuller, could you tell me more about how we could 
leverage technology to tackle some of the services challenges?
    Ms. Fuller. That's a great question, Senator.
    So when you're asking about services are you specifically 
talking about the services that we provide people when they 
come into the parks?
    Senator Daines. Yes.
    Ms. Fuller. Okay.
    So we do a lot of things with our various schemes that we 
create, but our main focus is telling the stories about 
locations in places where people wouldn't necessarily see them. 
And what we're really excited about is that we've attracted a 
huge variety of people. As I mentioned in my testimony, people 
young and old, people from urban areas and rural areas. I 
really think finding ways to partner across government lines, 
private lines, public lines and looking at ways that all of us 
can work together in order to find solutions to bring more 
community members into these parks is so important because each 
of us has an experience that's unique, but we don't have one 
solution.
    And we've had a lot of success working with various cities 
across the country recently. We've worked with cities in North 
Carolina, Ohio, California and are looking at Pennsylvania now 
to basically help funnel people into the cities.
    There's been a couple of different city events where the 
cities have closed down several miles of the downtown in order 
to encourage people to come and explore different 
neighborhoods. We've invited our players to come and 
participate in that, highlighting the history and the 
interesting monuments in that area.
    We've seen pretty extreme success with that. And it gets us 
really excited because all of a sudden there are people from 
all different walks of life coming together to explore a 
location. I think that, specifically, would be ideal in the 
National Park Service.
    Senator Daines. Alright, thank you.
    Ranking Member Hirono.
    Senator Hirono. Thank you.
    Ms. McDowall, over the past five years the Park System has 
lost 11 percent of its staff while at the same time struggling 
to accommodate a 19 percent increase in visitation on average 
across the system. As Mr. Shafroth mentions in his testimony, 
some parks are overwhelmed with interest in visitation. We also 
know that the President's Fiscal Year 2018 budget proposes a 13 
percent cut to the Park Service's overall budget and an 11 
percent cut to the visitor services line. How has the loss in 
park staff, coupled with such budgetary constraints, impacted 
the Park Service's ability to provide high quality programs and 
initiatives to engage the next generation of visitors?
    Ms. McDowall. So what the Park Service is doing to address 
issues like not having enough frontline rangers is looking for 
other places within our organization that we can find savings 
to apply that, those dollars, to those types of positions.
    For example, finding efficiencies in some of our back 
office functions, you know, can we spend less on human 
resources and contracting and some of our back-facing functions 
in order to apply those funds to more forward, visitor-facing 
functions of the Park Service? And we do feel we have 
opportunities there.
    Senator Hirono. I think you mentioned in your earlier 
testimony that you are reviewing all of the programs that you 
have regarding youth and that you may have to make some 
decisions.
    What would be the factors that you would take into 
consideration as to which programs are important enough to 
constitute or continue because you will probably have to make 
those decisions. I don't know that you are going to be able to 
find enough savings in your back office operations. So what are 
the factors that you would apply in making those decisions?
    Ms. McDowall. I think you look at things like the number of 
youth you impact with a particular program. You know, what is 
the bang for the buck on a particular program, for example. We 
might focus there and, when you're making choices, you know, 
the same kinds of decisions we make when we're looking at 
whether to put money into a particular facility over another. 
Is it a facility that meets a wide variety of visitor needs? Is 
it a facility that with perhaps less money you can make a big 
difference? Those are the types of things that we look at.
    Senator Hirono. I would also be concerned about the Park 
Service's prioritization of supporting smaller project 
partnerships, for example, Kupu, in Hawaii and other similar 
kinds of programs in smaller, rural areas or what have you 
because I would hate to have those programs be sacrificed in 
favor of larger programs.
    Ms. McDowall. Right, and that is a very good point.
    When we make those decisions we're often not making them 
across the entire Park Service because you're right, it 
wouldn't be fair to compare a Yellowstone to a Pu'uhonua or 
something like that. That park is making decisions using those 
types of criteria at that park. They are having to make choices 
at the park level. It's not the Washington office making 
decisions on behalf of those individual parks.
    Senator Hirono. I had earlier requested of one of the other 
people who testified from your Department for a list of all of 
the youth programs that you are reviewing and, to date, I don't 
believe that we have received such a list. So I would like to 
renew that request.
    Ms. McDowall. Okay.
    Senator Hirono. Because I think that these programs are 
really important as we talk about trying to expand the reach, 
and particularly to make sure that people who may normally not 
come to the parks, do come.
    Ms. Fultz Nordstrom, I know that your company currently 
provides online purchasing of passes for a small number of 
National Park Services and Forest Service units. Have you 
discussed with the Park Service expanding this program to more 
parks? Are there more parks interested in utilizing the online 
system? And is your goal to have this feature available for all 
National Park Service units that collect visitor fees?
    Ms. Fultz Nordstrom. Thank you for the question, Senator 
Hirono.
    Yes, we have discussed expansion. As part of the delivery 
of the solution we feel an important part is to actually market 
the solution as well. We're helping the parks themselves with 
the creation of marketing materials. That, of course, gains 
attention by the other park superintendents.
    So over the course of the last 14 months, we have had 
conversations with Yellowstone, with Glacier, and they have 
expressed a great interest. Most recently, the National Park 
Service has looked at, as Ms. McDowall said, expanding this to 
those locations that have the point of sale and so the Castillo 
expansion that we talked about is that first step. In October I 
know that they're looking at visiting and looking at expansion 
into the Grand Canyon, Yosemite, Yellowstone, Glacier, Sleeping 
Bear Dunes National Lakeshore, Fort Pulaski National Monument.
    Senator Hirono. Is this available in any of the Hawaii 
parks?
    Ms. Fultz Nordstrom. Today, Senator, it is not; however, 
we'd be happy to----
    Senator Hirono. Think about it.
    [Laughter.]
    Ms. Fultz Nordstrom. We'd be happy to expand.
    Senator Hirono. Come to Hawaii and check it out.
    Ms. Fultz Nordstrom. Was just there. Would love to come 
again. Thank you.
    Senator Hirono. I know my time is up, but the other thing 
is that if there are any efforts to reach out to international 
visitors to come to our parks. Is that something that you all 
are looking at doing?
    Ms. McDowall. I don't have the answer to that question, but 
we can provide it.
    Senator Hirono. Thank you.
    Senator Daines. I brought the Chinese Ambassador to 
Yellowstone Park a week and a half ago. We did all we could 
here to promote our National Parks with an important, growing 
demographic, in terms of tourism.
    Thank you, Ranking Member Hirono.
    I want to thank the witnesses for their time and their 
testimony today. If there are no more questions for today, 
members may also submit follow-up written questions for the 
record. The hearing record will be open for two weeks.
    This hearing is adjourned.
    [Whereupon, at 3:30 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               [all]

</pre></body></html>
